IN THE

SUPREME COURT OF THE UNITED STATES

OCTOBER TERM,2020

No.

JOHN G. STROMING,
Petitioner

V.

UNITED STATES OF AMERICA,

Respondent

PETITIONER'S APPENDIX TO
PETITION FOR A WRIT OF CERTIORARI

TO THE UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT

Tina Schneider

Counsel for Petitioner

44 Exchange Street
Suite 201

Portland, Maine 04101
(207)871-7930
March 15, 2021

Case 19-3305, Document 85-1, 01/22/2021, 3018492, Pagel of 5

19-3305-cr

United States v. Stroming

UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
SUMMARY ORDER

RULINGS BY SUMMARY ORDER DO NOT HAVE PRECEDENTIAL EFFECT. CITATION TO A

SUMMARY ORDER FILED ON OR AFTER JANUARY 1, 2007,IS PERMITTED AND IS GOVERNED BY
FEDERAL RULE OF APPELLATE PROCEDURE 32.1 AND THIS COURT'S LOCAL RULE 32.1.1. WHEN
CITING A SUMMARY ORDER IN A DOCUMENT FILED WITH THIS COURT, A PARTY MUST CITE
EITHER THE FEDERAL APPENDIX OR AN ELECTRONIC DATABASE (WITH THE NOTATION

"SUMMARY ORDER"). A PARTY CITING TO A SUMMARY ORDER MUST SERVE A COPY OF IT ON
ANY PARTY NOT REPRESENTED BY COUNSEL.

At a stated term of the United States Court of Appeals for the Second Circuit,

held at the Thurgood Marshall United States Courthouse, 40 Foley Square, in the City of
New York,on the 22"'' day of January,two thousand twenty-one.
PRESENT:

ROBERT A. KATZMANN,
RAYMOND J. LOHIER,JR.
MICHAEL H.PARK,

Circuit Judges.

UNITED STATES OF AMERICA,

Appellee,
No. 19-3305-cr

JOHN G. STROMING,

Defendant-Appellant.

For Defendant-Appellant:

Tina Schneider, Portland, ME.

For Appellee:

Carina H. Schoenberger, Assistant United
States Attorney,ybr Antoinette T. Bacon,
Acting United States Attorney for the
Northern District of New York, Syracuse,
NY.

Case 19-3305, Document 85-1, 01/22/2021, 3018492, Page2 of 5

Appeal from a judgment of the United States District Court for the Northern District of
New York(Mordue,J.).

UPON DUE CONSIDERATION,IT IS HEREBY ORDERED, ADJUDGED, AND
DECREED that the judgment of the district court is AFFIRMED.

Defendant-appellant John G. Stroming appeals from an October 7, 2019 amended

judgment of the United States District Court for the Northem District of New York, convicting
him, following a jury trial, of(1)sexually exploiting a child, in violation of 18 U.S.C. § 2251(a)
and(e);(2)committing a felony offense involving a minor by a registered sex offender,in violation
of 18 U.S.C. § 2260A; and (3) possessing child pornography, in violation of 18 U.S.C.
§ 2252A(a)(5)(B) and (b)(2). We assume the parties' familiarity with the underlying facts, the
procedural history of the case, and the issues on appeal.
The sole issue on appeal is whether the district court, during the defendant's trial on the
said charges ofcommitting sex crimes against a toddler("V-1"),abused its discretion by admitting
evidence ofthe defendant's prior convictions for crimes ofchild molestation.
"We review the District Court's decision to admit evidence for abuse ofdiscretion." United

States V. Spoor, 904 F.3d 141, 153 (2d Cir. 2018).^ "In a criminal case in which a defendant is
accused ofchild molestation,the court may admit evidence that the defendant committed any other

child molestation." Fed. R. Evid. 414(a). Any evidence admissible under Rule 414 must also pass
the Rule 403 test, which provides that the trial court"may exclude relevant evidence ifits probative
value is substantially outweighed by a danger of... unfair prejudice ...." Fed. R. Evid. 403;see
also United States v. Larson, 112 F.3d 600, 604-05 (2d Cir. 1997)(concluding that Rule 403

'Unless otherwise indicated, case quotations omit all internal quotation marks, alterations,
footnotes, and citations.

Case 19-3305, Document 85-1, 01/22/2021, 3018492, Page3 of 5

applies to evidence admissible under Rule 414). Once admitted, the jury may consider that
evidence on the issue of the defendant's propensity to commit the charged crime. See Spoor, 904
F.3d at 154; Fed. R. Evid. 414(a).

For the following reasons, we hold that the district court did not abuse its discretion in

admitting the evidence of the defendant's prior convictions involving child molestation.
First, the district court satisfied its obligation to assess the probative value of the evidence

at issue. The conduct underlying each ofStroming's three prior convictions—rape,criminal sexual

act involving a child, and possession of child pornography—constitutes "child molestation" for

the purposes ofRule 414. Fed. R.Evid. 414(d)(2)(B)-(D);Spoor,904 F.3d at 147 n.3("[Rule 414]
defines 'child molestation' to include production and possession of child pornography."). "In

determining the probative value of prior act evidence" under Rule 414, the district court should
consider, inter alia, "(1) the similarity of the prior acts to the acts charged,(2) the closeness in

time of the prior acts to the acts charged,(3) the frequency of the prior acts,(4) the presence or
lack of intervening circumstances, and (5) the necessity of the evidence beyond the testimonies
already offered at trial." Spoor,904 F.3d at 154.
We conclude that there are sufficient similarities,in terms ofthe defendant's sexual interest

in children, between his prior acts of child molestation and the acts that led to the instant charges.

We therefore reject the defendant's hairsplitting arguments that his prior convictions for

committing a criminal sexual act against a female teenager are not probative of his propensity to
assault a male toddler, and that his prior conviction for possessing an obscene sexual performance

by a child does not make it more likely that he would film himself sexually assaulting a toddler.
The district court need not find the defendant's prior acts of child molestation nearly identical to

those giving rise to the instant charges to find evidence of the prior acts admissible.

Case 19-3305, Document 85-1, 01/22/2021, 3018492, Page4 of 5

With respect to the second factor, the acts charged in this case occurred about ten years
after committing the child pornography offense and about two years before committing the rape
and the criminal sexual act against another child, both of which are within the relevant temporal

scope to be probative. See Larson, 112 F.3d at 605 ("The legislative history of Rule 414 reveals
that Congress meant its temporal scope to be broad, allowing the court to admit evidence of Rule
414 acts that occurred more than 20 years before trial...

see also, e.g., id.(holding that it was

not an abuse of discretion to admit under Rule 414 evidence of events that occurred 16 to 20 years

before trial). The fourth factor also favors admitting the evidence under Rule 414,as no intervening
circumstances suggest that the defendant's interest in sex with minors had waned.
Second, the district court acted within its discretion in concluding that the risk of unfair

prejudice did not substantially outweigh the probative value. See Fed. R. Evid. 403. It properly
limited the admissible evidence to the certified judgments of the prior convictions and the text of
the laws under which the defendant was convicted, without risking the prejudice that might have

resulted from more detailed descriptions ofthe defendant's prior offenses.
Third,the defendant fails to show that the evidence at issue had "a substantial and injurious

effect or influence on the jiuy's verdict" to warrant reversal. Spoor,904 F.3d at 153. After closing
arguments, the district court properly instructed the jurors not to act based on their prejudice, bias,

or sympathy and not to find the defendant guilty based solely on his other conduct. See Weeks v.
Angelone,528 U.S. 225,234(2000)("A jury is presumed to follow its instructions."). In addition,
there was overwhelming independent evidence of guilt: in the video, multiple witnesses identified
V-1 and the blue couch that was located in V-l's house and on which the defendant had stayed;

the jury watched portions of the video showing the assault on V-1 and listened to a law
enforcement officer's testimony that the defendant had made self-incriminating statements that he

Case 19-3305, Document 85-1, 01/22/2021, 3018492, PageS of 5

was the man in the video and that he had filmed the video; and the jury saw a letter that the
defendant had sent to V-l's grandfather after the video was discovered, which emphasized that his

victim was a girl, not the grandfather's grandson, an assertion consistent with his statements to the
law enforcement officer.

We have considered all ofthe defendant's remaining arguments and found in them no basis
for reversal. For the reasons set forth above, the judgment of the district court is AFFIRMED.
FOR THE COURT:

Catherine O'Hagan Wolfe, Clerk

